                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                 The Inspector General
                                                 Washington, D.C. 20230




February 18,2011

The Honorable James M. Inhofe
United States Senate
Washington, DC 20515

Dear Senator Inhofe,

This responds to your letter of May 26, 2010, in which you requested that we examine issues
related to the internet posting of email exchanges taken from the Climatic Research Unit (CRU)
of the University of East Anglia in the United Kingdom in a reported computer hacking incident
on or about November 17,2009. These emails constituted exchanges between researchers at the
CRU and many of the world's leading climate scientists, including employees ofthe National
Oceanic and Atmospheric Administration (NOAA). Within days of the release of these emails,
questions were raised publicly that the emails allegedly showed that climate change-related data
had been manipulated or deleted to support the theory that global warming is caused by human
activity.

You further inquired about the basis for a statement made by Dr. Jane Lubchenco, Under
Secretary of Commerce for Oceans and Atmosphere and NOAA Administrator, at a hearing
before the House Select Committee on Energy Independence and Global Warming (House Select
Committee) on December 2,2009. During this hearing, entitled "The Administration's View on
the State of Climate Science," Dr. Lubchenco testified:

     "The [CRU] emails really do nothing to undermine the very strong scientific consensus
     and the independent scientific analyses ofthousands ofscientists around the world that tell
     us that the earth is warming and that the warming is largely a result ofhuman activities. "

Pursuant to your request, we conducted an inquiry to determine the following:

  1. Whether NOAA carried out an internal review of the CRU emails posted on the internet.

  2. The basis for Dr. Lubchenco's above testimony statement before the House Select

     Committee on December 2, 2009.


  3. Whether NOAA has conducted a review of its global temperature data comprising the

     Global Historical Climatology Network-Monthly dataset (GHCN-M, described in the

     enclosure), which is maintained by NOAA's National Climatic Data Center (NCDC).

                                                                                                      2

   4. Whether any CRU emails indicated that NOAA:

      (a)	 inappropriately manipulated data comprising the GHCN-M temperature dataset;

      (b)	 failed to adhere to appropriate peer review procedures; or

      (c)	 did not comply with federal laws pertaining to information/data sharing, namely the
           Federal Information Quality Act (IQA), the Freedom ofInformation Act (FOIA), and
           the Shelby Amendment, which applies provisions of FOIA to recipients of federal
           funding (e.g., contractors and grantees).

In the course of our inquiry, we examined all ofthe 1,073 CRU emails that were posted on the
internet (spanning 13 years, from 1996 to 2009), primarily focusing on the 289 emails that
involved NOAA. We also interviewed Dr. Lubchenco, who was sworn in as Under Secretary and
NOAA Administrator on March 20, 2009; the Director of NOAA's NCDC and Transitional
Director for NOAA's Climate Service; the Co-Chair ofthe Intergovernmental Panel on Climate
Change's (IPCC) Fourth Assessment Report (AR4) Working Group 1, who is a NOAA senior
scientist; and other relevant NOAA and Departmental officials. Our inquiry did not assess the
validity and reliability of NOAA's or any other entity's climate science work. Our results,
including recommendations, are summarized below and detailed in the enclosure.

Summary of Results

1. NOAA's internal review ofCRU emails. Shortly following the internet release of the CRU
emails and ensuing public attention, NOAA conducted a management-level review of the emails,
in conjunction with staff of the Department of Commerce's Office of General Counsel.
According to Dr. Lubchenco, the purpose of the email review was to determine whether NOAA
employees were involved with the controversy and, if so, whether they did anything that was
illegal or improper with respect to their scientific work on behalf of NOAA. Dr. Lubchenco told
us she personally read some ofthe emails and was relieved because they indicated that NOAA
scientists had not done anything inappropriate involving their scientific work. The officials who
conducted this review, which was undocumented, told us that the emails raised no concerns.

In our own review of all 1,073 CRU emails, we found eight emails which, in our judgment,
warranted further examination to clarify any possible issues involving the scientific integrity of
particular NOAA scientists or NOAA's data. As a result, we conducted interviews with the
relevant NOAA scientists regarding these eight emails, and have summarized their responses and
explanations in the enclosure.

In addition to the foregoing, we also found two other emails that raised questions, one regarding
a 2002 contract NOAA awarded to the CRU, and the second involving actions on the part oftwo
NOAA scientists in 2007. This latter email concerned the creation and forwarding of a
photographic image titled, "marooned," which depicted Senator Inhofe and five other persons­
several as characters from the television program Gilligan's Island-as stranded on a melting ice
cap at the North Pole or floating nearby in the ocean. As detailed in the enclosure, we
recommend that NOAA examine the CRU contract issues implicated by the one email and
provide the results to us. With respect to the latter email, as a result of our bringing this matter to
their attention, NOAA management recently took action to address the scientists' conduct.
                                                                                                      3


2. Dr. Lubchenco's December 2, 2009, testimony statement. In preparation for the United
Nations Climate Change Conference in mid-December 2009, the House Select Committee held a
hearing on December 2,2009, to discuss the Administration's view on the state of climate
science. Both Dr. John Holdren, Assistant to the President for Science and Technology and
Director of the Office of Science and Technology Policy, and Dr. Lubchenco testified at the
hearing. Dr. Lubchenco, a marine ecologist and environmental scientist, told us that her
statement from the hearing was based on, and reflects, her general confidence in the
"fundamental science" behind the human-induced global warming theory, which she
characterized as "robust." Specifically, Dr. Lubchenco told us that the CRU emails do nothing to
undermine the conclusions drawn by climate scientists with regard to global warming because
the emails involved just one ofthe many centers across the globe that analyzes climate
information. According to Dr. Lubchenco, even if one were to discount the CRU's scientific
assertions, other groups that analyze climate information have reached the same conclusion, and,
as such, the fundamental science remains very strong.

3. Review of the temperature data contained in the GHCN-M dataset. We determined that
NOAA has not conducted a specific, targeted review ofthe monthly temperature data contained
in the GHCN-M dataset as a result ofthe CRU controversy. Even though Dr. Lubchenco
expressed confidence in the scientific research that forms the basis for the GHCN-M dataset, she
and her staff discussed retroactively ensuring that the data meets certain standards, but she did
not recall the feasibility or disposition of such an effort. However, according to NOAA, the
algorithms l , which NCDC utilizes to adjust monthly temperature time series data in the GHCN­
M dataset, are extensively evaluated in peer-reviewed scientific literature. NOAA scientists with
whom we spoke assert that the data itself is regularly subjected to rigorous quality control
processes, which, according to NCDC's Director, effectively serve as "ongoing review[s ofthe
data] that occurs... every month."

4. The integrity of NOAA's science and its adherence to peer review procedures and
federal standards, as reflected in the CRU emails. In our review of the CRU emails, we did
not find any evidence that NOAA inappropriately manipulated data comprising the GHCN-M
dataset or failed to adhere to appropriate peer review procedures. In addition, we found no
evidence to suggest that NOAA was non-compliant with the IQA or the Shelby Amendment.
However, the CRU emails referenced a specific IPCC-related FOIA request received and
responded to by NOAA in June 2007 that led to our further examination of how those FOIA
requests were handled. We determined that, at the time, NOAA did not conduct a proper search
for responsive documents as required under FOIA, and, as a result, did not have a sufficient basis
to inform the requesters that it had no responsive documents. Given that federal agencies are
legally obligated to publicly disclose records under the terms of FOIA, we recommend that
NOAA conduct a proper search for responsive records as required by the FOIA, and reassess its
response to the four FOIA requests in question, as appropriate. Additionally, based on the issues
we identified in NOAA's handling of these particular FOIA requests, NOAA should consider
whether these issues warrant an overall assessment of the sufficiency of its FOIA process.


1   An algorithm is a step-by-step procedure for solving a problem or accomplishing some end, especially
    via computer (Source: Merriam-Webster Online. http://www.merriam-webster.com/dictionary/algorithm).
    NOAA applies algorithms to data in order to adjust for various non-climatic factors (e.g., instrument
    changes).
                                                                                                  4

If I can answer any questions or be of further assistance, please feel free to contact me or my
Deputy, Scott D. Dahl, at 202-482-4661.

Sincerely,


~~)~
Todd J. Zinser

Enclosure

cc:	 Dr. Jane Lubchenco, Under Secretary of Commerce
      for Oceans and Atmosphere and NOAA Administrator
                                                Enclosure

Detailed Results ofInquiry Responding to May 26, 2010, Requestfrom Senator Inhofe

Background

National Climatic Data Center

The National Climatic Data Center (NCDC), headquartered in Asheville, North Carolina, is
part of the National Oceanic and Atmospheric Administration's (NOAA) National
Environmental Satellite, Data and Information Service (see Figure 1). NCDC houses the
world's largest climate archive and, as such, provides historical perspectives on climate that
are vital to studies on global climate change, the greenhouse effect, and other environmental
issues. NCDC also works with international institutions such as the International Council of
Scientific Unions, the World Data Centers, and the World Meteorological Organization, to
                                                                           1
develop standards by which data can be exchanged and made accessible.

 Figure 1. NOAA Organizational Chart Related to GHCN-M




                                                 NOAA

                                                     I
      I                I                 I                  I              I                  l
 Oceanic &          National         National            National       National        Program
Atmospheric          Ocean        Environmental           Marine        Weather        Planning &
 Research           Service       Satellite, Data,       Fisheries      Service        Integration
                                  & Information           Service
                                      Service

                                         I
                                    National
                                  Climatic Data
                                     Center




    Source: OIG Adaption of NOAA Figure.

According to NCDC, it has more than 150 years of data on hand, with 224 gigabytes of new
information added each day-equivalent to 72 million pages a day. NCDC uses this data to
develop both national and global datasets, including the Global Historical Climatology
Network (GHCN-Monthly, or GHCN-M). The GHCN-M is a dataset of surface temperature,
precipitation, and barometric pressure records. When first released in 1992, the database

1   Information obtained from NCDC's website: http://www.ncdc.noaa.gov/oa/about/about.html.
                                                                                                              2

provided mean temperature data for approximately 6,000 stations worldwide to support a
variety of climate-related activities. A second version was released in 1997 following
extensive efforts to increase the number of stations and length of the data record. At that time,
data from more than 30 sources worldwide (including nations) made it possible to expand the
network to 7,280 stations and substantially improve coverage in previously data-sparse areas
of the world. 2 The period of record varies from station to station, with several thousand
stations extending back to 1950 and several hundred stations being updated monthly via
CLIMAT3 reports. 4

The GHCN-M is used operationally by the NCDC to monitor long-term trends in temperature
and precipitation. The network has also been employed in several international climate
assessments, including the United Nations Intergovernmental Panel on Climate Change
(IPCC). According to NCDC's Director, the data contained in the GHCN-M is freely available
to the general public.

In addition to the GHCN-M, there are two other major global land surface temperature datasets.
These are published by (1) the Goddard Institute of Space Studies, which is part of the National
Aeronautic and Space Administration in the United States, and (2) the Climatic Research Unit
(CRU), which is part of the University of East Anglia in the United Kingdom. These three
groups reportedly work independently and use different methods to process data to calculate the
global average temperature.

Internet release ofCRU emails

On or about November 17,2009, 1,073 email exchanges were taken from the CRUin a reported
hacking incident; soon after, the CRU emails were posted to the internet. These CRU emails
constituted exchanges between researchers at the CRU and many of the world's leading climate
scientists, including some at NOAA. Within days of the internet release of these emails,
questions were raised publicly that the emails allegedly showed that climate-change related data
had been manipulated or deleted to support the "anthropogenic" global warming theory (which
asserts that the increase in the average temperature of the Earth's near-surface air and oceans
since the mid-20 th century is a result of human activity.) For instance, critics pointed to a well­
publicized CRU email dated November 16, 1999, in which Phil Jones, Director of the CRU, used
the words "trick" and "hide the decline" while discussing temperature reconstructions. Critics
alleged that these references indicated a deliberate attempt on his part to inappropriately alter
climate data and influence the IPCC's findings and conclusions.

In addition, given that key global environmental policy makers, including those in the United
States, base their decisions largely on the IPCC's work, critics expressed concerns over the


2	    Version 3 of the GHCN-M dataset is currently in Beta testing. (See OIG response to Question number
      three on page 9 for more details.)
3	    CLIMAT is a code for reporting monthly climatological data assembled at land-based meteorological
      surface observation sites to data centers. The reports are generally sent and exchanged via the World
      Meteorological Organization's Global Telecommunication System.
 4	   Information obtained from NCDC's website at: http://www.ncdc.noaa.gov/ghcnm/v2.php
                                                                                                          3

representations of "scientific consensus" contained in IPCC reports. Specifically, critics said the
CRU emails reflected a lack of such consensus, or, at the very least, raised doubt as to the
objectivity of the scientists who have contributed to IPCC reports as lead or contributing authors
and expert reviewers.

As a result ofthe CRU email controversy, a number of domestic and international panels,
including by the House of Commons of the United Kingdom, the University of East Anglia, and
Pennsylvania State University, were separately convened to examine the contents ofthe emails
to assess whether the scientists (l) "manipulated" or "manufactured" data; (2) did not comply
with freedom of information requests; and/or (3) inappropriately kept articles which contradicted
their beliefs out ofjournals or assessments. (See Appendix A for a listing of some of these
reports and Appendix B for our detailed inquiry methodology).

Details of Issues Examined

1. Determine whether NOAA conducted an internal review ofthe CRU emails posted
   on the internet.

As part of our inquiry, we interviewed Dr. Lubchenco and individuals who participated in
NOAA's management-level review of the CRU emails, and conducted our own review of all
1,073 emails. According to Dr. Lubchenco, the purpose of the CRU email review was to
determine whether NOAA personnel were involved with the controversy, and if so, "did they do
anything that was illegal and for which there may be some liabilities" with respect to their
scientific work on behalf of NOAA. Dr. Lubchenco told us she personally read some of the
emails. She noted that she was "relieved because they were at odds with the way they were being
publicly portrayed, and I thought that the ones I read [indicated] that NOAA scientists were
exercising by and large good judgment and not doing things that were inappropriate" in their
scientific work.

We found that NOAA carried out the management-level review in late November or early
December 2009, shortly following the internet release of the CRU emails, in conjunction with
staff of the Department of Commerce's Office of General Counsel (OGC). The officials who
conducted this review, which was undocumented, told us that the emails raised no concerns.

In our own review of all 1,073 CRU emails, we found eight emails which, in our judgment,
warranted further examination to clarify any possible issues involving the scientific integrity of
particular NOAA scientists or NOAA's data. As a result, we conducted interviews with the
relevant NOAA scientists regarding these eight emails, and have summarized their responses and
explanations below: 5

 •	 CRU email #1140039406. This email, dated February 15,2006, documented exchanges
    between several climate scientists, including the Deputy Director of CRU, related to their
    contributions to chapter six of the IPCC AR4. In one such exchange, the Deputy Director of
    CRU warned his colleagues not to "let [the Co-Chair of AR4 WGl] (or [a researcher at

5    The issues identified here are not exclusive to the eight CRU email control numbers referenced herein,
    in that some were also raised in other emails.
                                                                                                     4

  Pennsylvania State University]) push you (us) beyond where we know is right" in terms of
  stating in the AR4 "conclusions beyond what we can securely justify." The Deputy Director
  of CRU further noted in the email that he wished only to provide "a confirmation of the
  general conclusion of the TAR [Third Assessment Report]," without attributing this
  confirmation to data or analytical techniques that had come to light since the publication of
  the TAR.

  The Co-Chair explained to us that she had only requested that these scientists cite the
  evidence that they contended "reinforced" the TAR's conclusion regarding the "exceptional
  warmth of the late 20th century, relative to the past 1000 years." She told us that her goal as
  Co-Chair was not to push a particular outcome, but to ensure that the scientists provided
  "more clarity as to what the reasoning was for [the] particular statement" they were making.

•	 CRU email #1169653761. This email, dated January 24,2007, between various non-NOAA
   scientists discusses a request by the Co-Chair of AR4 WG1 to shift data values in a chart
   used in WG1's "Summary for Policymakers" (SPM). Specifically, in response to questions
   about the data points used in a particular chart, one of the email recipients stated as follows:

       "[t]he averages ofthe values in Figure 3.6 over 1961-1990 turned out not to be exactly
       0.000 owing to missing data in the reference period (a perennial problem [the Director
       ofCRU] is well aware ot). But [the Co-Chair] wanted the SPM curve to average exactly
       0.000 in 1961-1990 so the values were shifted by somewhere between 0.02 and 0.03."

  The Co-Chair explained to us that very often, climate-related data is presented in terms of
  anomalies of temperature-in other words, the difference from average temperatures for any
  given area over a period of time. "If there is any missing data, it will influence [this]
  difference." For instance, if one set of data is very complete, as in "all the points are there, all
  over the whole world, [but] in the other one, that's not the case ... , there's going to be a slight
  offset... because they're not exactly the same coverage.... So, putting a slight shift in the
  curve to account for that, and saying that's what you did is perfectly okay in scientific usage."
  She added that because the chart "was going into the [SPM], I wanted to make sure that we
  didn't have to spend a lot of time explaining what I've just explained to you to people who
  are not experts." With regard to shifting the values between 0.02 and 0.03, the Co-Chair said
  that she was not a recipient of this email and did not remember seeing anything on this topic
  and, therefore, did not know how large the shift actually was.

•	 CRU email #1182255717. This email, dated June 19,2007, included several exchanges
   between climate scientists, related to questions raised by critics concerning the validity and
   reliability ofthe data contained in a 1990 article entitled "Urban Heat Islands in China," to
   which the NCDC Director had contributed.

  The NCDC Director explained to us that he was responsible for contributing U.S. data to the
  piece; however, the Chinese meteorological data, which is the subject of the controversy, was
  collected by one of his colleagues, a non-NOAA scientist, and the NCDC Director had not
  personally analyzed it. The NCDC Director further told us that in general, while co-authors
  of an article "certainly read what the [collective] paper [is] saying... , [they do not do]
  analysis that the other people contributed." We also spoke with other scientists who indicated
                                                                                                          5

      that such independence in scientific research and writing is not uncommon; co-authored
      articles are often divided into sections, and each co-author is only responsible for his or her
      own contribution. In addition, the CRU emails indicate that the individuals who questioned
      the data contained in this article appeared to direct their complaints mainly to the scientist
      responsible for compiling and analyzing the Chinese meteorological data.

    •	 CRU email #1177890796. In an email dated April 29, 2007, the Deputy Director ofCRU
       and a lead author for chapter six ofthe IPCC AR4, sent an email to a researcher at
       Pennsylvania State University stating that" ... I was particularly unhappy that I could not get
       the statement into the SPM [Summary for Policymakers] regarding the AR4 reinforcement of
       the results and conclusions of the TAR [Third Assessment Report]. I tried my best but we
       were basically railroaded by [the Co-Chair of AR4 W01]."

      The Co-Chair explained to us that the referenced lead author never raised this issue with her
      and, as such, she was not sure what he meant by his comment. However, the Co-Chair said
      that a general statement such as, "the AR4 reinforced the conclusions ofthe TAR" seemed
      very unclear to her. As it stands, the AR4 W01 SPM reads "[s]ome recent studies indicate
      greater variability in Northem Hemisphere temperatures than suggested in the TAR,
      particularly finding that cooler periods existed in the 12th to 14th, 17th and 19th centuries.,,6
      According to the Co-Chair, this "greater variability" in temperatures points to differences
      between the conclusions drawn in the TAR and the AR4. As such, she "didn't want to have
      confusing general statements [in the AR4] that [the AR4] reinforced, in some way [the
      conclusions of the TAR]. To me, it seemed much better to say what the similarities and
      differences [of the conclusions in the reports] were."

    •	 CRU email #1212073451. In an email dated May 29, 2008, in which the Director ofthe
       CRU requested a researcher from Pennsylvania State University to ask an individual, who is
       now a NOAA scientist, to delete certain emails related to his participation in the IPCC AR4.

      This scientist explained to us that he believes he deleted the referenced emails at that time.
      We determined that he did not become a NOAA employee until after the incident, in August
      2008, and therefore did not violate any agency record retention policies. Further, this
      individual informed us that in December 2009, he received a letter from Senator Inhofe
      requesting that he retain all of his records, which he told us he has done.

      We note that in response to an earlier 010 recommendation, on April 8,2010, and again on
      February 7, 2011, Dr. Lubchenco sent an email to all NOAA employees reminding them of
      their records retention responsibilities. While we consider the Under Secretary's
      communications sufficient in implementing our recommendation, we note that the
      recommendation was not made in the context ofFOIA and, as such, neither ofthe



6   IPCC, 2007: Summary for Policymakers. In: Climate Change 2007: The Physical Science Basis.
    Contribution of Working Group I to the Fourth Assessment Report of the Intergovernmental Panel on
    Climate Change [Solomon, S., D. Qin, M. Manning, Z. Chen, M. Marquis, K.B. Averyt, M. Tignor and
    H.: Miller (eds.)] Cambridge University Press, Cambridge, United Kingdom and New York, NY, USA.
                                                                                                    6

   communications referenced FOIA. Accordingly, NOAA may wish to specifically address
   FOIA in future refresher guidance concerning record retention.

•	 CRU email # 1226451442. This email, dated November 11,2008, referenced a FOIA
   request (#2009-00070) submitted to NOAA for records related to a 2008 article entitled
   "Consistency of Modeled and Observed Temperature Trends in the Tropical Troposphere"
   by various authors, including four NOAA scientists. The requester asked for "monthly time
   series output" of certain climate models used to calculate temperature trends contemplated in
   the article, as well as "any correspondence concerning these monthly time series" between
   specified authors of the article, including the four aforementioned NOAA scientists. Pursuant
   to our inquiry, we learned that NOAA responded to the requester that it had no responsive
   records. However, we found some CRU emails discussing the aforementioned article, which,
   as a result, may have been responsive to the FOIA request and thus required agency action.

  We interviewed the four NOAA scientists specified in the FOIA request to determine why
  these documents were not provided to the requester. We learned that upon receipt of this
  FOIA request, the four NOAA scientists and one NOAA General Counsel attorney
  participated in a conference call to decide how to address the FOIA request. It was ultimately
  determined by the group that the request for "monthly time series output" was seeking only
  the numerical data output from the climate model simulations, which the NOAA scientists
  had never possessed, and not the analysis oftemperature trends derived from this numerical
  data, which were the subject of the CRU emails related to the article. Also on this conference
  call, the NOAA scientists determined that because they had never possessed the specific
  numerical data, they therefore could not possess "correspondences concerning these monthly
  time series."

•	 CRU email #1226959467. In this email, dated November 17, 2008, the Director ofCRU
   discussed with a NASA scientist the fact that the majority of the quality control procedures
   that NCDC performed on temperature data that comprised the GHCN-M were done after the
   raw data had been reported, rather than in real-time (at the same time the data was reported).

  According to the NCDC Director, NCDC can do a better job of ensuring the quality of
  temperature data retrospectively than it can in real-time because, as time passes, there is more
  opportunity for late reports to come in. Such reports thus provide additional values upon
  which NCDC can rely in calculating temperature trends. However, the NCDC Director noted
  that GHCN-M version 3, which is currently scheduled to become fully operational at the end
  ofFY 2011, will have considerably more real-time quality control processes.

•	 CRU email #1254850534. In this email, dated October 6, 2009, the Director ofCRU
   responded to an email from a climate scientist at the University Corporation for Atmospheric
   Research (UCAR) in Colorado. Pursuant to his comparison ofCRU's climate-related dataset
   to those ofNCDC and NASA's Goddard Institute for Space Studies (GISS), the CRU
   Director noted that "NCDC must have some data gaps."

  NCDC's Chief Scientist explained to us was not copied on this email and, therefore, told us
  that he could not speculate as to which "data gaps" the CRU Director was referring to in his
  email, he provided some insight into the rationale behind what some may consider gaps in
                                                                                                               7

      NCDC's GHCN-M dataset. For example, NCDC's Chief Scientist explained that GISS
      "interpolate[s] land data out over the frozen Arctic Ocean," or "fills in" information based on
      data gathered from stations on nearby land. Conversely, he told us NCDC treats this ocean
      area as "missing [data]" because NCDC "deal[s] with land data separately over land, and
      then ocean data over the ocean." Also, NCDC's Chief Scientist told us that it has been
      NCDC's long-standing policy to "not put data in [the] GHCN that we couldn't release [to the
      public]" for any given reason. For example, the Chief Scientist explained that if a country has
      prohibited the public release of data it owns because it wishes to sell the data, it will be
      excluded from the GHCN-M dataset; however, such data may make its way into other global
      climate datasets which do not have such restrictions.

In addition to the foregoing, we found two other emails that raised questions, one regarding a
2002 contract NOAA awarded to the CRU, and the second involving actions on the part of two
NOAA scientists in 2007. This latter email concerned the creation and forwarding ofa
photographic image titled, "marooned," which depicted Senator Inhofe and five other persons­
several as characters from the television program Gilligan's Island-as stranded on a melting ice
cap at the North Pole or floating nearby in the ocean. These two emails are discussed as follows:

(a) Potential irregularities involving NOAA contract (CRU email #1056478635)

This email, dated June 24,2003, captioned "NOAA Funding," was sent by a visiting fellow at
CRU, a NOAA contractor, to another researcher (affiliated with a research institution in
Vietnam) stating the following:

           "NOAA want[s] to give us more money for the El Nino workwith IGCN [Indochina
            Global Change Network). How much do we have leftfrom the last budget? I reckon
           most has been spent but we need to show some left to cover the costs ofthe trip
           [name omitted] didn't make and also the fees/equipment/computer money we haven't
           spent otherwise NOAA will be suspicious."

The visiting fellow served as CRU's "principal investigator,,7 for its contract with NOAA. This
email raises questions about CRU's use of NOAA funds and, in our view, should have been
identified and examined in the course of NOAA's CRU email review. We learned that this
particular email was also highlighted by the House Select Committee in "Questions Submitted
for the Record" following Dr. Lubchenco's above-referenced December 2,2009, testimony.
NOAA's written response to the committee, dated February 16,2010, stated that NOAA would
look into this issue and report back to the committee. However, we determined that NOAA had
not followed up on this topic or provided a response to this question to the committee. The Under
Secretary told us that had she seen this email, she would have wanted to know more about it and
whether there was anything to be concerned about. She thought that the review team may not
have paid attention to it given the volume of emails reviewed.



7   A principal investigator (PI) is the lead scientist for a particular research project. The PI has direct
    responsibility for completion of a funded project, directing the research and reporting directly to the
    funding agency.
                                                                                                                 8

According to the Deputy Director of NOAA's Climate Program Office, with whom we spoke in
January 2011, she was recently tasked with identifying the amount and purpose ofthis contract.
As a result, we learned that NOAA contracted with the CRU in 2002-2003 to conduct two
training workshops on forecasting EI Nino and La Nina in Indochina at a cost of $29,240 and
$37,000, respectively. However, at the time of our interviews, NOAA had not established
whether the terms ofthis contract were adhered to by CRU.

Auditing NOAA's contracting with CRU was not within the scope of our inquiry, but in light of
these circumstances it is important for NOAA to be assured that CRU fully complied with the
applicable u.s. contracting rules and requirements. Moreover, NOAA could not tell us the
universe of climate-related contracts it has issued over the past ten years to parties and
institutions such as CRU, Accordingly, we recommend that NOAA examine this contract-along
with any other contracts, grants, or cooperative agreements awarded to CRU-to verify
conformance with all terms and specifications, and to identify any irregularities, and provide us
the results of its review.

(b)	 Inappropriate image created and forwarded by NOAA scientists to the Director of the
     CRU (CRU email #1171901402)

This email, dated February 19,2007, captioned "Fwd: Marooned?" contained an inappropriate
image which NCDC's Chief Scientist forwarded to the Director of the CRU,s The image depicts
superimposed photographs of several individuals involved in the debate over global warming as
characters from the television program Gilligan's Island, stranded on a melting ice cap at the
North Pole or floating nearby in the ocean. In the course of our inquiry, we learned that another
NOAA scientist had created the image during official business hours, using government
computer equipment.

Both the Chief Scientist and the creator of the image told us it was meant to bring some levity to
the constant criticism that they and their fellow climate scientists were facing at the time from
"climate skeptics." Notwithstanding their rationale, such an image could foster an adverse
appearance about the scientists' objectivity, and at least one internet blog questioned the
propriety of the image. While none of the senior NOAA officials we interviewed said they were
aware of the referenced email and the attached picture before we interviewed them,
Dr. Lubchenco told us that "it was in bad taste." According to NOAA, both scientists, who
acknowledged that the image was inappropriate, have since been counseled by their respective
superVIsors.




8   We considered it inappropriate to further distribute this image and thus did not publish it in our report.
    As of February 15,2011, it remained publicly posted at http://www.climate-gate.org/cru/documents
    (February 19,2007, 11:20 a.m., document #116746, "maroonedjpg").
                                                                                                  9

2. Determine the basis for Dr. Lubchenco's testimony statement that "The /CRUJ
   emails really do nothing to undermine the very strong scientific consensus and the
   independent scientific analyses ofthousands ofscientists around the world that tell
   us that the earth is warming and that the warming is largely a result ofhuman
   activities. "

In preparation for the United Nations Climate Change Conference in mid-December 2009
(commonly referred to as the "Copenhagen Summit"), the House Select Committee held a
hearing on December 2,2009, to discuss the Administration's view of the state of climate
science. Dr. Lubchenco, a marine ecologist and environmental scientist, testified to the
aforementioned statement in response to a question she received at the hearing. Dr. Lubchenco
told us she could not be sure whether she had read any of the CRU emails or received a briefing
from her staff on the results of NOAA's CRU email review prior to testifying before the House
Select Committee. However, she informed us that her testimony statement was not grounded in
the results of those efforts. Instead, she reported that her statement reflects her general
confidence in the "fundamental science" behind the human-induced global warming theory,
which she characterized as "robust."

Specifically, Dr. Lubchenco told us that the CRU emails do nothing to undermine the
conclusions drawn by climate scientists with regard to global warming because the emails
involved just one of the centers across the globe that analyze climate information. She further
asserted to us that even if one were to discount the CRU's scientific assertions, the other centers
which independently analyze climate-related information have reached the same conclusion, and,
as such, the fundamental science remains very strong.

In addition to Dr. Lubchenco's statement related to the CRU email controversy, Dr. John
Holdren, Assistant to the President for Science and Technology and Director ofthe Office of
Science and Technology Policy, testified in his opening remarks at the December 2,2009,
hearing that:

      "The emails are mainly about a controversy over a particular dataset and the ways a
      particular, small group ofscientists have interpreted and displayed that dataset. It's
      important to understand that these kinds ofcontroversies and even accusations ofbias and
      improper manipulation are not all that uncommon in science ... In this particular case, the
      data set in question and the way it was interpreted and presented by these particular
      scientists constitutes a very small part ofthe immense body ofdata and analysis on which
      our understanding ofthe issue ofclimate change rests. "

3. Determine whether NOAA has conducted a review oftemperature data contained in
   the NCDC GHCN-M dataset (Dataset Index Identifier-9100). Ifnot, determine why
   such a review ofNCDC's GHCN-M temperature data has not been conducted in light
   ofthe correspondences released in November 2009 between researchers at the CRU
   and many ofthe world's leading climate scientists, including NOAA employees.

We found that NOAA has not conducted a specific, targeted review of the temperature data
contained in the GCHN-M dataset as a result of the CRU controversy. Dr. Lubchenco told us that
                                                                                                   10

she and her staff had "talked about... going back and making sure that all of the data we
have... meets the standards that we expect them to meet," but could not recall any specifics, as
she does not typically become involved to that level of detail. Dr. Lubchenco expressed
confidence in the scientific research that forms the basis for the GHCN-M dataset.

NOAA officials informed us that the algorithms NCDC utilizes to adjust monthly temperature
time series data in the GHCN-M dataset, are, as discussed in the following section, evaluated in
peer-reviewed scientific literature. Additionally, NOAA scientists with whom we spoke assert
that both historical and near-real time GHCN-M data are regularly subjected to quality control
processes, which, according to NCDC's Director, effectively serve as "ongoing review[s of the
data] that occur. .. every month." NOAA maintains that the data is processed in accordance with a
quality assurance review checklist, with each step in the checklist geared toward identifying a
specific data problem; data must pass each step in order to proceed to the next step. (See Figure 2
for a flowchart ofNCDC's quality control tests run on the data before it is incorporated into
GHCN-M Version 2.)9 Once the reviews are completed, NCDC makes data adjustments from
the applied algorithms, resulting in the GHCN-M Version 2 dataset.

Figure 2. Flow chart of NOAA quality control tests for data incorporated into GHCN-M Version 2

         Source Data Sets
           Evaluation
                                .....      Station Time Series
                                               Evaluation           i
                                                                         Individual Data Points
                                                                               Evaluation
     •   Exclude                        • Locate station on a           • Identify temporal
         homogeneity                      detailed map                    outliers
         adjusted source data           • Compare station               • Validate these
     •   Exclude                          elevation with gridded          outliers with spatial
         synoptically derived             evaluation data                 assessment
         source data                    • Test for change in mean
     •   Perform                        • Test for change in
         Consistency Checks               variance
                                        • Perform  numeric checks


 Source: OIG Adaptation ofNOAA Figure.

In August 2010, NCDC posted a new test version (Beta Version 3) of the GHCN-M dataset on
its website. Version 3 presently runs simultaneously with Version 2 so that NCDC, as well as the
public, can get a sense about the differences between the new version and old version. According
to NCDC's Chief Scientist, initial comparisons of the data "found that the new system was
better, more reliable." NCDC attributes this improvement in part to new quality control
processes and the use of advanced techniques to adjust for irregularities in the data. NCDC
anticipates using GHCN-M Version 3 officially by the end of Fiscal Year 2011.

Separately, it should be noted that the United Kingdom's Met Office (similar to NOAA)
submitted a proposal to the World Meteorological Organization's (WMO) Commission for


9	   Peterson, Thomas C., Russell Vose, Richard Schmoyer, and Vyachevslav Razuvaev, 1997: Global
     Historical Climatology Network Quality Control ofMonthly Temperature Data, International Journal
     ofClimatology, 18: 1169-1179.
                                                                                                  11

Climatology in February 2010 for the creation of a single, comprehensive repository of global
climate data (including temperature records not currently freely available) through the
collaboration with many partners in other countries. Accordingly, the proposal envisioned that
the climate data in this "one-stop-shop" would be corrected and adjusted in a transparent way, so
as to ensure that the resulting datasets are sound and traceable to help allay public concerns that
the scientists may have manipulated the data. According to NCDC's Chief Scientist, who is also
the current President ofthe Commission for Climatology, the Commission's members have
endorsed the proposal and the effort is currently underway.

4. Determine whether any ofthe CRU emails indicated that NOAA:

(a) inappropriately manipulated data comprising the GHCN-M temperature dataset.

We found no evidence in the CRU emails that NOAA inappropriately manipulated data
comprising the GHCN-M dataset. The CRU emails referenced certain "adjustments" to the raw
data contained in the GHCN-M dataset. NOAA scientists told us that such adjustments are
routinely made to remove artificial biases created by, for example, station moves, instrument
changes, and urbanization issues, and thus did not constitute inappropriate manipulation of the
data. As mentioned previously, the three global temperature datasets maintained by NOAA,
NASA, and the CRU use different methodologies to process raw data.

While we did not verify the validity and reliability of the methodologies used to compile the raw
or adjusted data contained in the GHCN-M, we did examine whether any information in the
CRU emails indicated that NOAA failed to provide open access to its methodologies, thus
making it impossible for interested persons to reproduce its results. We found no evidence to
suggest such failure on NOAA's part. According to NCDC's Chief Scientist, NCDC retains all
original data used to derive products such as homogenized or normalized datasets. Per NOAA,
these original data are also maintained in such a form that any researcher can access and analyze
them to reproduce published scientific results. According to NOAA, the methods used to derive
such published scientific results are documented in peer-reviewed scientific journal articles.
These methods are also made publicly available in as timely a manner as possible. In addition,
NCDC's Director informed us that NOAA-developed software required to reproduce such results
are made available to the public upon request. We found nothing in the CRU emails or in the
course of our inquiry which disputed these claims.

(b) failed to adhere to appropriate peer review procedures.

We found no evidence in the CRU emails to suggest that NOAA failed to adhere to its peer
review procedures prior to its dissemination of information. NOAA has established policies and
procedures related to internal and external peer reviews in accordance with the OMB Final
Information Quality Bulletin for Peer Review, dated January 2005. 10 NOAA's policies require
peer review of influential scientific iriformation, or information that the agency determines will
or does have a clear and substantial impact on important public policies or private sector



 10   Final Information Quality Bulletinfor Peer Review, 70 Fed. Reg. 2664 (OMB Jan. 14,2005).
                                                                                                         12

decisions. ll It also includes information on how to select appropriate peer reviewers and
opportunities to include public participation.

In July 2010, we issued a report12 that, among other things, addressed NCDC's internal peer
review process. At that time, we found that NCDC, in at least one instance, failed to account for
an internal review it had performed on a scientific article, presumably because it was in the
process of switching to an electronic software package designed for reviewing such articles. We
recommended that NCDC periodically perform quality control checks of this system to verify
that it was functioning correctly, so as to avoid another situation where NCDC could not
adequately verify that a complete internal review had been performed. As part of our present
inquiry, we received a demonstration ofNCDC's internal review process and found that the
aforementioned electronic software package is fully operational. We also found that the system
contains mechanisms by which drafts of articles, as well as reviewer comments on such drafts,
are saved at each stage of the internal review process, thus documenting reviewer questions and
concerns as to the information contained therein.

(c)	 did not comply with federal laws pertaining to information/data sharing, namely the
     Federal Information Quality Act (IQA) the Freedom ofInformation Act (FOIA), and the
     Shelby Amendment.

        (i)	 Federal Information Quality Act

We found no evidence in the CRU emails to suggest that NOAA violated its obligations under
the IQA. The IQA constitutes a set of guidelines to OMB, requiring it to provide policy and
procedural guidance to federal agencies for ensuring and maximizing the quality, utility, integrity
and objectivity of information (including statistical information) disseminated by such federal
agencies. 13 To comply with these guidelines, OMB required federal agencies to implement
information quality guidelines and, furthermore, to establish an administrative mechanism for
persons to seek and obtain correction of information maintained and disseminated by these
agencies. 14 Therefore, in order to determine whether any information exchanged in the CRU
emails raised concerns regarding NOAA's obligations under the IQA, we examined whether
such information indicated that NOAA failed to adhere to its own IQ Guidelines, which NOAA
implemented on October 1,2002. 15


 11	   U.S. Dept. of Commerce, National Oceanic and Atmospheric Administration, National Oceanic and
       Atmospheric Administration Information Quality Guidelines (2002).
 12	   Review of NOAA's Efforts to Modernize U.S. Historical Climatology Network: STL-19846 (July 29,
       2010).
 13	   Consolidated Appropriations Act of2001, Pub. L. No. 106-554, App. C, § 515, 114 Stat. 2763,

       2763A-153 (2000).

 14    Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility, and Integrity of

        Information Disseminated by Federal Agencies, Final Guidelines (corrected), 67 Fed. Reg. 8452

       (OMB Feb. 22, 2002).

15	    U.S. Dept. of Commerce, National Oceanic and Atmospheric Administration, National Oceanic and
       Atmospheric Administration Information Quality Guidelines (2002). The mandates contained in
       NOAA's IQ Guidelines are twofold. First, NOAA line offices must conduct pre-dissemination reviews
                                                                                                             13


We found no mention in the CRU emails that NOAA did not comply with its IQ Guidelines and
thus the IQA, whether by failing to conduct a pre-dissemination review of particular information
or by failing to make proper use of its administrative correction mechanism.

      (ii) Freedom of Information Act (FOIA)

We found a reference I6 in the CRU emails to a FOIA request submitted to NOAA in June 2007,
related to the IPCC, which, upon further investigation, raised questions about NOAA's
processing ofthe request. In examining NOAA's response to this FOIA request, we discovered
three additional, nearly identical FOIA requests received and responded to by NOAA during the
same time frame. As such, we reviewed NOAA's processing of all four FOIA requestsP

FOIA extends to any person a legally-enforceable right to require federal agencies to make full
or partial disclosure of certain unreleased information. The Act defines agency records subject to
disclosure, outlines mandatory disclosure procedures and grants nine specific exemptions to the
statute. I8 FOIA provides that, upon receiving a reasonably specific request for records that
complies with published rules, an agency must "promptly" make such records available to the
requester. I9 Absent "unusual circumstances," the agency has 20 business days from the date on
which it received the FOIA request to determine whether to withhold any records under a FOIA
exemption and to notify the requester of its decision. zo Generally, agencies must undertake a
search that is reasonably calculated to uncover all relevant documents, where the term "search"
means to "review, manually or by automated means, agency records for the purpose of locating
those records which are responsive to a request."ZI



      of information for three elements: utility, integrity and objectivity. Second, NOAA's IQ Guidelines set
      forth an administrative correction mechanism by which an affectedperson-one who uses, benefits
      from or is harmed by the information at issue-may file a request for correction of that infonnation.
      According to NOAA's guidelines, information possesses the requisite utility if it is useful, or helpful,
      beneficial and serviceable, as well as accessible and understandable, to its broad range of intended
      users. Information possesses the requisite integrity if it has been adequately safeguarded from
      unauthorized access, such as may result in improper use, modification or destruction of the
      information. Finally, information possesses the requisite objectivity if it is accurate, reliable and
      unbiased and is presented in a clear, complete and unbiased manner. The guidelines further state that
      because NOAA handles scientific information which reflects the inherent uncertainty of the scientific
      process, information is deemed accurate if it is within an acceptable degree of imprecision or error
      appropriate to the particular kind of information at issue and otherwise meets commonly accepted
      scientific, statistical or other standards.
 16   CRU email #1182255717.
17    NOAA FOIA request numbers: 2007-00342,2007-00354,2007-00355 and 2007-00364.
18    5 U.S.C. § 552.
19    5 U.S.C. § 552(a)(3).
20
      5 U.S.C. § 552(a) (6).
21    5 U.S.C. § 552(a) (3).
                                                                                                            14

With regard to the four FOIA requests mentioned above, the requesters sought NOAA records
pertaining to review comments on the Second Order Draft and Final Draft of the IPCC AR4
Working Group 1. NOAA received and responded to these requests over a span of three weeks,
informing each requester that "[a]fter reviewing our files, we have determined that we have no
NOAA records responsive to your request. If records exist that are responsive to your request,
they would be records of the IPCC and as such can be requested from the IPCC ...." Contrary to
NOAA's assertions, we found that it did not conduct a sufficient search for records prior to
responding to these FOIA requests.

The FOIA requests asked for "documents, memoranda, review comments, reports, internal and
external correspondence or mail including email correspondence and attachments to andfrom
NOAA employees" [emphasis added] regarding WG1 's review comments on the Second Order
Draft and Final Draft of the IPCC AR4. However, the NOAA scientists with whom we spoke
indicated that as a result of their participation in WG1 as authors and/or editors,22 they may have
possessed responsive records, but were never apprised ofthe FOIA requests. As such, they did
not search for and forward potentially responsive records for agency processing, as is required
under FOIA.

The Co-Chair ofthe IPCC AR4 WG1, who was the only NOAA scientist informed of any of the
aforementioned FOIA requests, told us that she did not conduct a "comprehensive search" for
and forward potentially responsive documents for agency processing. This was based, in part, on
her understanding that her IPCC-related work product was the property of the IPCC, due to the
confidentiality provisions contained in many of the documents. In addition, she reportedly
received verbal guidance from her supervisor and a NOAA OGC attorney that the IPCC-related
documents she had created and/or obtained while on "detail" assignment to the IPCC did not
constitute NOAA records.

FOIA includes provisions as to what constitutes an "agency record." Under FOIA, an agency
must exert sufficient control over the requested documents to render them "agency records" such
as would be subject to disclosure. To qualify as agency records, documents must be created or
obtained by the agency and under its control at the time the FOIA request is made. 23 The
Co-Chair informed us that the IPCC process was governed by an implicit policy of
confidentiality with respect to, for example, the pre-decisional correspondences of its members.
We examined IPCC-related records in the possession of NOAA employees, some of which
contained the directive "Do Not Cite or Quote," and others of which had "Confidential. Do Not
Cite or Quote." However, none ofthe NOAA employees with whom we spoke who participated
in the IPCC AR4 recalled explicit IPCC policies or procedures pertaining to the confidentiality
of the material produced as part of the assessment process. Absent such an unambiguous
directive, in our view, the IPCC did not demonstrate a clear intent to retain control over the
records created or obtained by NOAA employees. 24

22   According to Dr. Lubchenco, NOAA scientists comprise 73 percent of the federal authors in the

     IPCC's AR4 for Working Group 1, the basis of the physical understanding of climate.

23   DOJ v. Tax Analysts, 492 U.S. 136, 144-45 (1989)
24   Subsequent to the publication of AR4, the Thirty-Second Session of the IPCC released a Review of
     IPCC Processes and Procedures on October 11-14, 2010, for use with the Fifth Assessment Report. In
     it, the IPCC stated that it could not provide its participants any legal advice as to whether IPCC-related
                                                                                                        15


Further, the Co-Chair told us that she had been detailed from NOAA to the IPCC from 2002 to
2007. As such, she said that upon her receipt of one of the four FOIA requests, she had consulted
with her supervisor as well as a NOAA OGC attorney, to determine how she should respond to
the request. The Co-Chair said that based on these exchanges, it was her understanding that any
IPCC-related documents in her possession did not constitute "agency records" and, accordingly,
she did not conduct a "comprehensive search" for responsive records. We spoke with her
supervisor who said that he had also consulted with a NOAA OGC attorney on the matter and
that he, too, understood that the Co-Chair's IPCC-related documents were not NOAA records.

We interviewed the two NOAA OGC attorneys whom the Co-Chair and her supervisor
referenced during their interviews with us to determine what, if any, advice the attorneys
provided to these individuals. Both attorneys specifically told us that they had not advised the
Co-Chair or her supervisor on this matter at the time NOAA received the FOIA requests
referenced herein. One attorney said that he never spoke to the Co-Chair about that issue, while
the second attorney told us that he was consulted only after NOAA had already responded to the
FOIA requesters that it had no responsive documents.

This second attorney maintained that the Co-Chair had called him within the past year or two,
after NOAA responded to the 2007 FOIA requests, to confirm that the advice the Co-Chair said
she received from him was still applicable. This attorney again maintained that he had not
provided any such guidance. The attorney told us that at that point, he researched the matter and,
based on his read of a precedent court case that he thought might be on point, Judicial Watch,
Inc. v. Dep't ofEnergy, 412 F.3d 125 (D.C. Cir. 2005), he responded to the Co-Chair that the
advice she said she had received earlier appeared reasonable. However, this attorney noted that
he had been led to believe by the Co-Chair that she was officially detailed to the IPCC and,
further, that a search for responsive documents had been conducted, but no such documents were
found. This attorney also told us that even now, NOAA OGC does not have an official position
as to whether IPCC-related records constitute NOAA records for the purposes ofFOIA.

Based on our interviews of the two NOAA OGC attorneys, we followed-up with the Co-Chair
and her supervisor, both of whom again told us that their handling ofthe aforementioned FOIA
requests was based on advice they had received from these two specific attorneys. We requested
from the Co-Chair and her supervisor documentation of any discussions with the NOAA OGC
attorneys on this matter, which they were unable to provide. As such, we were unable to
reconcile the divergent accounts.

We examined the precedent case referenced by one of the NOAA OGC attorneys, Judicial
Watch, Inc. v. Dep't ofEnergy, and found that unlike in this case, the Co-Chair, as well as other
NOAA employees who participated in the AR4, performed much of their IPCC-related work at
NOAA offices and/or using NOAA equipment, received their pay from NOAA, and, in their own
words, continued to work on other NOAA matters and remained subject to the supervision of
other NOAA employees. In addition, all ofthe NOAA employees we questioned on this topic,
with the exception of the Co-Chair, considered their IPCC-related workto be an official NOAA

  documents in their possession constituted agency records such that they would be subject to release
  under individual member countries' FOIA laws.
                                                                                                    16

activity. Furthermore, we found no evidence that any of the employees, including the Co-Chair,
were formally "detailed" to the IPCC, via, for example, a memorandum of understanding or
SF-52 Request for Detai1. 25 As a result, in our view, any records created by these employees in
the "legitimate conduct of [their] official duties," including IPCC-related work, constitute
NOAA agency records, and as such, should have been processed under FOIA to determine
whether the records were releasable.

We note that in the course of our inquiry, we did not determine whether NOAA actually
possessed responsive documents and/or whether it should have released any IPCC-related
records created or obtained by its employees in response to the aforementioned four FOIA
requests. However, it is clear that NOAA did not conduct a proper search in response to these
requests, and it should not have excluded from the universe those IPCC documents that the Co­
Chair may have possessed at the time of the requests. Only by going through the proper FOIA
process-including conducting a search and turning over responsive documents to NOAA's
designated FOIA official-could NOAA have made a determination whether the records in
question were in fact NOAA records and whether any exemptions may have been applicable
under FOIA.

Given that federal agencies are legally obligated to publicly disclose records under FOIA, we
recommend that NOAA carry out a proper search for the records sought in these FOIA requests
and, as appropriate, reassess its response. Additionally, given the issues we identified in
NOAA's handling of these particular FOIA requests, NOAA should consider whether these
issues warrant an overall assessment ofthe sufficiency of its FOIA process.

 (iii) Shelby Amendment

We found no evidence in the CRU emails to suggest that NOAA violated its obligations under
the Shelby Amendment. The "Shelby Amendment" refers to a provision attached to the Omnibus
Consolidated and Emergency Supplemental Appropriations Act for Fiscal Year 1999, which
essentially authorizes federally-funded research data derived from institutions of higher
education, hospitals and non-profit institutions to be accessed through the mechanisms set forth
in FOIA. 26 As a result, OMB Circular A-IIO was revised to state that when a FOIA request
centers on federally-funded research data that is both published and has been used by the federal
government to develop agency action that has the force and the effect of the law, the agency
must request, and the recipient of federal funds must provide, the requested research data so that
it can be made available to the public pursuant to the procedures established under FOIA. 27



25 Although the court emphasized in Judicial Watch that the source of compensation for employees is not
   dispositive, these facts taken together strongly indicate that the NOAA employees working on IPCC
   matters remained NOAA employees and were not effectively transformed into IPCC employees.
26 Omnibus Consolidated and Emergency Supplemental Appropriations Act, 1999, Pub. L. No. 105-277,
   112 Stat. 2681, 2681-495 (1998).
270MB Circular A-II 0, Uniform Administrative Requirements for Grants and Agreements with
  Institutions ofHigher Education, Hospitals, and Other Non-Profit Organizations, 64 Fed. Reg. 54,926
  (OMB Oct. 8. 1999).
                                                                                                17

As addressed previously, the CRU emails contained references to two distinct FOIA requests
submitted to NOAA, neither of which specifically asked NOAA for research data produced by
an institution of higher education, hospital or non-profit institution operating under a monetary
grant from NOAA. As a result, there is no evidence in the CRU emails to suggest that NOAA did
not meet its obligations under the Shelby Amendment.

Recommendations

Based on the foregoing results of our inquiry, we recommend that NOAA take the following
actions:

 1.	 Carry out a proper search for responsive records to the four FOIA requests seeking NOAA
     records regarding review comments on the Second Order Draft and Final Draft of the IPCC
     AR4 WG1, and reassess the agency's response to these requests as appropriate. Additionally,
     given the issues we identified in NOAA's handling of these particular FOIA requests, NOAA
     should consider whether these issues warrant an overall assessment of the sufficiency of its
     FOIA process.

2. Review the contract with CRU referenced in CRU email No. 1056478635, along with any
   other contracts, grants, or cooperative agreements awarded to CRU-to verify conformance
   with all terms and specifications, and to identify any irregularities-and provide the results of
   its review to us.
                                                                                                                                                             18


                                                                       Appendix A

                                         List of Inquiries OIG Reviewed Related to CRU Emails



   United States Senate Report                                                                 United States Senate Committee on Environment
   'Consensus' Exposed: The CRU Controversy                                                    and Public Works, Minority Staff
   RA-lO Inquiry Report: Concerning the Allegations of                I   February 2010        Pennsylvania State University (University
   Research Misconduct Against Dr. Michael E. Mann                                             Administrators)

   The disclosure of climate data from the Climatic                   I    March 2010          United Kingdom House of Commons, Science
   Research Unit at the University of East Anglia                                              and Technology Committee

   Report of the International Panel set up by the                    I    April 2010          University of East Anglia, Oxburgh Panel (United
   University of East Anglia to examine the research of                                        Kingdom)
   the Climatic Research Unit.

   RA-lO Final Investigation Report Involving                         I     June 2010          Pennsylvania State University (Faculty Members)
   Dr. Michael E. Mann

   The Independent Climate Change Emails Review                       I     July 2010          University of East Anglia, Muir Russell Panel
                                                                                               (United Kingdom)
   EPA's Denial ofthe Petitions to Reconsider the                     I   August 2010          U.S. Environmental Protection Agency
   Endangerment and Cause or Contribute Findings for
   Greenhouse Gases Under Section 202(a) ofthe Clean
   Air Act; Final Rule (40 CFR Chapter 1)

   Climate Change Assessments, Review of the Processes I                  August 2010          InterAcademy Council
   & Procedures of the IPCC

* The InterAcademy Council is a multinational organization of science academies created to produce reports on scientific, technological, and health issues
  related to global challenges of our time, providing knowledge and advice to national governments and international organizations.
                                                                                                  19


                                           Appendix B

                                          Methodology

On or about November 17,2009, 1,073 email exchanges were taken from the CRU in a reported
hacking incident; soon after, they were posted to the internet. These CRU emails constituted
exchanges between researchers at the CRU and many of the world's leading climate scientists,
including some at NOAA. Within days ofthe internet release of these emails, questions were raised
publicly that the emails allegedly showed that climate-change related data had been manipulated or
deleted to support the "anthropogenic" global warming theory (which asserts that the increase in
the average temperature ofthe Earth's near-surface air and oceans since the mid-20th century is a
result of human activity.) Senator Inhofe requested that we examine issues surrounding the CRU
email controversy. Accordingly, we conducted an inquiry to determine:

  1.	 Whether NOAA carried out an internal review of the CRU emails posted on the internet.

 2.	 The basis for a testimony statement made by Dr. Jane Lubchenco, Under Secretary of
     Commerce for Oceans and Atmosphere and NOAA Administrator, before the House Select
     Committee on Energy Independence and Global Warming (House Select Committee) on
     December 2, 2009, in a Hearing entitled "The Administration's View on the State of Climate
     Science," in which she stated the following:

        "The [CRUJ emails really do nothing to undermine the very strong scientific consensus
        and the independent scientific analyses ofthousands ofscientists around the world that tell
        us that the earth is warming and that the warming is largely a result ofhuman activities. "

 3.	 Whether NOAA has conducted a review of its global temperature data comprising the Global
     Historical Climatology Network-Monthly (GHCN-M) dataset, which is maintained by
     NOAA's National Climatic Data Center's (NCDC).

 4.	 Whether any of the CRU emails indicated that NOAA:

     (a) inappropriately manipulated data comprising the GHCN temperature dataset;

     (b) failed to adhere to appropriate peer review procedures; or

     (c) did not comply with federal laws pertaining to information/data sharing, namely the
         Federal Information Quality Act (IQA), the Freedom ofInformation Act (FOIA), and the
         Shelby Amendment.
                                                                                                         20


As a part of our inquiry, we examined all 1,073 emails,29 spanning 13 years (1996 through 2009),
thatwere posted on the Internet from a CRU server in November 2009. We then narrowed the
focus of our inquiry to the 289 emails that we identified as relating to NOAA and/or its employees.
The two NOAA scientists whose names most frequently appear in the emails30 included the
Director of the NCDC and Transitional Director of NOAA's Climate Service (103 emails); and a
NOAA senior scientist who served as Co-Chair of Working Group 1 (WG1) for the United Nations
Intergovernmental Panel on Climate Change (IPCC) Fourth Assessment Report (AR4) (108
emails).

We interviewed Dr. Jane Lubchenco, who was sworn in as Under Secretary of Commerce for
Oceans and Atmosphere and NOAA Administrator on March 20,2009; the Transitional Director of
NOAA's Climate Service, who is the former Director ofNCDC; the Co-Chair ofthe IPCC AR4
Working Group 1, who is a NOAA senior scientist; and other key officials identified in the CRU
emails, including scientists and managers from NCDC and NOAA's Office of Oceanic and
Atmospheric Research (OAR). Specifically, we interviewed officials from OAR's (1) Earth
System Research Laboratory, (2) Geophysical Fluid Dynamic Laboratory, and (3) Air Resource
Laboratory. We also interviewed individuals associated with the CRU email review that NOAA
conducted in conjunction with the Department of Commerce's Office of General Counsel (OGC),
including NOAA's former Acting Deputy Chief of Staff (current Deputy Director of NOAA's
Coastal Services Center) and an attorney from the Department of Commerce's OGC. Additionally,
we interviewed two attorneys from NOAA's OGC who were familiar with FOIA issues referenced
in this report.

Finally, we examined background information relating to the GHCN, including relevant peer
reviewed literature and data quality assurance procedures; IPCC AR4 Policy and Procedures;
relevant U.S. laws, regulations, and policies; and various reports issued relating to the CRU email
controversy (see Appendix A for a listing of reports reviewed). Our inquiry did not include any
assessment ofthe validity and reliability of NOAA's or any other entity's climate science research.




29   While 1,073 emails were posted to the Internet, each of these 1,073 emails contained a number of
     additional emails embedded in text. Given that many of these embedded emails were repeats of
     previously embedded emails, we were unable to identify exactly how many emails we reviewed in total
     or to distinguish one embedded email from another in any meaningful way. As such, in this report, we
     refer to specific embedded emails only by referencing the control numbers ofthe emails which contained
     these embedded emails, of which there are 1,073.
30   Includes the number of emails in which the individual was a sender/receiver, copied on, and/or
     mentioned in the text of an email.
